NO._____________
IN THE SUPREME COURT OF THE UNITED STATES
ROLANDO B. VILLARREAL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), Petitioner Rolando B. Villarreal asks
leave to file the accompanying Petition for Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner was represented by counsel appointed under the Criminal Justice Act, 18 U.S.C.
ยง 3006A(b) and (c), in the United States District Court and on appeal to the United States Court
of Appeals for the Fifth Circuit.
Date: April 12, 2021

Respectfully submitted,
MARJORIE A. MEYERS
Federal Public Defender
Southern District of Texas
Attorney of Record

MICHAEL HERMAN
First Assistant Federal Public Defender
Attorneys for Petitioners
440 Louisiana, Suite 1350
Houston, Texas 77002-1056
Telephone: (713) 718-4600

